TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                        RECOVERY ACT


                   Health Coverage Tax Credit Recovery Act
                   Provisions Were Timely Implemented, but
                          Program Capacity Is Limited



                                      September 24, 2010

                              Reference Number: 2010-41-122




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                     HIGHLIGHTS


HEALTH COVERAGE TAX CREDIT                           premiums paid from 65 percent to 80 percent.
RECOVERY ACT PROVISIONS WERE                         The IRS also implemented processes to enable
TIMELY IMPLEMENTED, BUT PROGRAM                      individuals to request reimbursement for
CAPACITY IS LIMITED                                  premiums paid while enrolling in the Advance
                                                     Monthly Payment Option.

Highlights                                           Although TIGTA found that payments were
                                                     timely and accurately processed, the IRS will
                                                     face challenges if there is a significant increase
Final Report issued on September 24,                 in the number of monthly enrolled participants.
2010                                                 Current IRS systems are built to support only
                                                     57,000 enrolled participants in any given month.
Highlights of Reference Number: 2010-41-122          In addition, TIGTA identified that eligibility
to the Internal Revenue Service Commissioner         indicators for 3,661 individuals in Calendar
for the Wage and Investment Division.                Year 2009 could not be posted to the respective
                                                     individuals’ IRS tax account. HCTC Program
IMPACT ON TAXPAYERS                                  management noted that a business decision
The Health Coverage Tax Credit (HCTC) is a           was made to not resolve these unpostable
refundable tax credit and was created to assist      conditions because they represent less than
certain workers who lost their jobs due to foreign   1 percent of the accounts for which an indicator
trade and retirees who receive payments from         is added. Not establishing a process to resolve
the Pension Benefit Guaranty Corporation. Our        unpostable situations can have a negative
review identified that processes were developed      impact on these individuals and result in
to ensure HCTC payments were timely and              taxpayer burden.
accurately processed. All payments TIGTA             WHAT TIGTA RECOMMENDED
reviewed were sent to the Health Plan
Administrators on time to ensure the continuity      TIGTA recommended that the Commissioner,
of the individual’s health coverage.                 Wage and Investment Division, develop a
                                                     process to ensure accuracy of Health Plan
WHY TIGTA DID THE AUDIT                              Administrators’ information on the IRS financial
The American Recovery and Reinvestment Act           system and HCTC financial system; ensure
of 2009 (Recovery Act) included provisions to        individuals participating in the Advance Monthly
help make health coverage more affordable.           Payment Option receive accurate Health
These provisions are expected to improve the         Coverage Tax Credit (HCTC) Advance
availability of health coverage to eligible          Payments (Form 1099-H) payment information;
individuals and their qualifying family members.     and identify and resolve unpostable records to
In Calendar Year 2008, the Internal Revenue          ensure eligibility indicators are added to
Service (IRS) processed 159,012 payments             individuals’ tax accounts.
totaling $121.8 million, which included              The IRS agreed with two of the three
$44.1 million in payments from individuals and       recommendations. The IRS disagreed with our
$77.7 million in Federal Government subsidies.       recommendation to ensure individuals receive
Our overall objective was to evaluate the            accurate Forms 1099-H. IRS management
efficiency and effectiveness of HCTC payment         indicated that individuals receive accurate
processing.                                          Forms 1099-H and the form is for information
                                                     only. Notwithstanding IRS management’s
WHAT TIGTA FOUND
                                                     response, TIGTA found that some individuals
The IRS timely and accurately implemented            did receive inaccurate Forms 1099-H.
provisions relating to the Advance Monthly           Form 1099-H needs to be accurate because
Payment Option included in the Recovery Act.         individuals receiving Forms 1099-H use this
Our review identified that the IRS increased the     information when preparing their tax returns.
Federal Government portion of health insurance
                                                  DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                September 24, 2010


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION



 FROM:             (for)         Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Health Coverage Tax Credit Recovery Act
                                 Provisions Were Timely Implemented, but Program Capacity Is
                                 Limited (Audit # 201040106)

 This report presents the results of our review to evaluate the efficiency and effectiveness of the
 Health Coverage Tax Credit payment processing. This audit was conducted as part of the
 Treasury Inspector General for Tax Administration Fiscal Year 2010 Annual Audit Plan and
 addresses the major management challenges of Taxpayer Protection and Rights and Erroneous
 and Improper Payments and Credits.
 The American Recovery and Reinvestment Act of 2009 (Recovery Act)1 provides separate
 funding to the Treasury Inspector General for Tax Administration through September 30, 2013,
 to be used in oversight activities of Internal Revenue Service programs. This audit was
 conducted using Recovery Act funds.
 Management’s complete response to the draft report is included in Appendix VII.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (202) 622-5916.




 1
     Pub. L. No. 111-5, 123 Stat. 115 (2009).
                                 Health Coverage Tax Credit Recovery
                             Act Provisions Were Timely Implemented, but
                                     Program Capacity Is Limited




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          Advance Monthly Payments Were Timely and Accurately Processed ........ Page 5
          Actions Were Taken to Implement the Health Care Tax Credit
          Provisions Included in the American Recovery and Reinvestment
          Act of 2009 ................................................................................................... Page 7
          Improvements Can Be Made to Increase the Efficiency of the Advance
          Monthly Payment Processing ....................................................................... Page 10
                    Recommendations 1 and 2: .............................................. Page 15

                    Recommendation 3: .................................................................. Page 16


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 17
          Appendix II – Major Contributors to This Report ........................................ Page 21
          Appendix III – Report Distribution List ....................................................... Page 22
          Appendix IV – Health Coverage Tax Credit (Form 8885) ........................... Page 23
          Appendix V – Role of Each Location in the Health Coverage
          Tax Credit Program....................................................................................... Page 24
          Appendix VI – The Health Coverage Tax Credit (HCTC)
          Reimbursement Request (Form 14095) ........................................................ Page 27
          Appendix VII - Management’s Response to the Draft Report ..................... Page 29
           Health Coverage Tax Credit Recovery
       Act Provisions Were Timely Implemented, but
               Program Capacity Is Limited




                  Abbreviations

HCTC        Health Coverage Tax Credit
IRS         Internal Revenue Service
PBGC        Pension Benefit Guaranty Corporation
TIN         Taxpayer Identification Number
                              Health Coverage Tax Credit Recovery
                          Act Provisions Were Timely Implemented, but
                                  Program Capacity Is Limited




                                              Background

The Health Coverage Tax Credit (HCTC) was signed into law on August 6, 2002, as a
component of the Trade Adjustment Assistance Reform Act of 2002.1 The HCTC is a refundable
tax credit2 and was created to assist certain workers who lost their jobs due to foreign trade and
who receive benefits through the Trade Adjustment
Assistance or Alternative Trade Adjustment Assistance            The intent of the HCTC is to
programs as well as eligible recipients of pensions that         make health coverage more
are being paid by the Pension Benefit Guaranty                 affordable  for certain groups of
Corporation (PBGC).   3                                        people  who  otherwise might not
                                                                                       be insured.
The Internal Revenue Service (IRS) administers the
HCTC in partnership with other Federal agencies,
States, and the private health care industry. State workforce agencies, the Department of Labor,
and the PBGC are responsible for identifying potentially eligible individuals. The State
workforce agencies and the PBGC transmit records of potentially eligible individuals to the IRS.
States transmit this information daily and the PBGC transmits monthly. The IRS created the
HCTC Program office to oversee the administration of the HCTC. The IRS is responsible for
ensuring that potentially eligible individuals meet program requirements and that monthly
payments are accurately processed. This includes:
    •    Sending monthly invoices to eligible individuals for their share of the monthly medical
         premium.
    •    Processing monthly payments from individuals.
    •    Combining the individual’s payment with the Federal Government’s share of the monthly
         medical premium and forwarding the full monthly premium payment to the Health Plan
         Administrator.
    •    Providing annual information detailing the amounts paid by the individual and Federal
         Government for monthly health insurance premiums for posting to individuals’ tax
         accounts.




1
  Pub. L. No. 107-210, 116 Stat.933 (2002).
2
  For this type of tax credit, the taxpayer can receive a refund even if they did not owe any taxes or earn any income.
3
  When an employer cannot continue paying pensions to its retirees, the PBGC may be requested to take over the
responsibility of paying pension benefits to the employer’s retirees.
                                                                                                               Page 1
                             Health Coverage Tax Credit Recovery
                         Act Provisions Were Timely Implemented, but
                                 Program Capacity Is Limited



The HCTC can be obtained in the following ways:
    •    Annually - Individuals can claim the credit on their annual Federal tax return by
         preparing and including a Health Coverage Tax Credit (Form 8885).
    •    Advance Monthly - This option allows more affordable and accessible health coverage
         for eligible individuals because a significant percentage of their monthly health insurance
         premium is subsidized by the Federal Government. Individuals can submit an application
         to the IRS requesting enrollment in the Advance Monthly Payment Option. The IRS
         ensures the individual meets program requirements.
    •    Combination - Some individuals claim the credit using a combination of claiming the
         credit on their annually filed tax return and also receiving the advance monthly credit.
Figure 1 shows the number of individuals participating in the Advance Monthly Payment Option
during Calendar Years 2007 through 2009.
    Figure 1: Number of HCTC Participants Participating in the Advance Monthly
               Payment Option for Calendar Years 2007 through 2009

                                        Advance Monthly Payment Option
            Calendar
              Year               Number of
                                                      Number of Monthly           Amount of Monthly
                                  Monthly
                                                         Payments4                   Payments5
                                Participants
               2007                 21,877                    171,227                      $127 M

               2008                 20,489                    159,012                      $122 M

               2009                 26,960                    192,373                      $148 M
        Source: IRS’ HCTC Program office.

Contractors and other Federal agencies assist in the Advance Monthly Payment processing
The Health Insurance Tax Credit Administration appropriation provides funding for contractor
support to administer the HCTC Advance Monthly Payment Option. The HCTC Payment
Processing Operation uses several facilities nationwide for the processing of Advance Monthly
Payments. Appendix V provides a description of these facilities.

4
  This is the number of payments sent to Health Plan Administrators for individuals that participate in the Advance
Monthly Payment Option.
5
  This consists of the individual’s payment for his or her share of the health premium, the Federal Government
subsidized payment, and the individual’s payment for other health premiums (e.g., dental or vision benefits that are
not part of the individual’s comprehensive health plan) that together pay in full the individual’s monthly health
premium.
                                                                                                             Page 2
                        Health Coverage Tax Credit Recovery
                    Act Provisions Were Timely Implemented, but
                            Program Capacity Is Limited



Figure 2 details the payment processing for the Advance Monthly Payment Option.
         Figure 2: Payment Process for Advance Monthly Payment Option




       Source: HCTC Payment Processing Flowchart.

                                                                                  Page 3
                               Health Coverage Tax Credit Recovery
                           Act Provisions Were Timely Implemented, but
                                   Program Capacity Is Limited



The American Recovery and Reinvestment Act of 2009 (Recovery Act)6 activities require a high
level of scrutiny, and taxpayer dollars spent on economic recovery must be subject to
unprecedented levels of transparency and accountability. Federal agencies are required to ensure
Recovery Act funds are used for authorized purposes and appropriate measures are taken to
prevent fraud, waste, and abuse. As such, the Treasury Inspector General for Tax Administration
is required to monitor IRS implementation of Recovery Act provisions, and this audit was
conducted to meet those requirements.
This review was performed at the HCTC Program office in Washington, D.C., HCTC Lockbox
office in St. Louis, Missouri, HCTC Finance and Accounting office in Houston, Texas, HCTC
Processing Center in San Antonio, Texas, and the IRS Beckley Finance Center in
Beckley, West Virginia, during the period November 2009 through May 2010. We conducted
this performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




6
    Pub. L. No. 111-5, 123 Stat. 115 (2009).
                                                                                          Page 4
                         Health Coverage Tax Credit Recovery
                     Act Provisions Were Timely Implemented, but
                             Program Capacity Is Limited




                                Results of Review

Advance Monthly Payments Were Timely and Accurately Processed
The IRS is responsible for processing and approving all payments on behalf of HCTC
participants. The IRS has developed processes and has taken actions in an effort to ensure the
accurate and timely processing of payments for those individuals participating in the Advance
Monthly Payment Option. In Calendar Year 2008, the IRS processed 159,012 payments totaling
$121.8 million, which included $44.1 million in payments
from individuals and $77.7 million in Federal Government     Processes have been developed
subsidies.                                                     to ensure accurate and timely
                                                                processing of HCTC Advance
Our review of a statistically valid sample of Advance                 Monthly Payments.
Monthly Payments associated with 90 individuals in
Calendar Year 2008 found that payments were timely and
accurately processed. There were a total of 731 payments processed for these individuals. We
traced these payments from the receipt of the participating individual monthly premium payment
through to the issuance of the payment to the Health Plan Administrator. We found that all
payments were sent to the Health Plan Administrators on time to ensure the continuity of the
individual’s health coverage.
The accuracy of payment processing is primarily attributable to the multiple monthly accounting
reconciliations the IRS performs. These reconciliations are used to ensure the accuracy of
Advance Monthly Payment processing from receipt of an individual’s payment at the bank to the
posting of the payment that is transmitted to the Health Plan Administrator to an individual’s tax
account. These reconciliations are designed to identify discrepancies between the multiple
systems used by the various Government agencies and the contractor involved in the processing
of the Advance Monthly Payments. If discrepancies are identified, efforts are initiated to resolve
the discrepancy. Figure 3 provides a brief description of the reconciliations performed by the
IRS.




                                                                                           Page 5
                               Health Coverage Tax Credit Recovery
                           Act Provisions Were Timely Implemented, but
                                   Program Capacity Is Limited



                Figure 3: Reconciliations of Advance Monthly Payment Option

                                                                         Description
                  Category                                             of IRS Actions7
    Designated Site for Processing              ● Verifies that the site’s deposit of individuals’ payments agrees
        Individuals’ Payments                     with the Government’s deposit and HCTC payment records.


                                                ● Confirms the deposit of individuals’ payments by credit card
                 Credit Card                      agrees with the records of the credit card processing center.


                                                ● Verifies that the amount received from an individual is paid to
                                                  the Health Plan Administrator.
                                                ● Identifies differences between the individuals’ payments and
                                                  payments sent to Health Plan Administrators.
       Health Plan Administrators               ● Verifies the amount paid to the HCTC Program’s Health Plan
                                                  Administrators agrees with the Government’s Health Plan
                                                  Administrators payments.
                                                ● Compares the total General Ledger expense amount with the
                                                  total Health Plan Administrators payment runs.


                                                ● Verifies returned funds/repayments ending balance agrees with
                                                  accounting records.
     Returned Funds/Repayments                  ● Low credit balance on an individual’s account or small
                                                  over-refund received from an individual or Health Plan
                                                  Administrator is moved from account.


                                                ● Reconciles the Refund Voucher amounts forwarded to the IRS
                                                  with the IRS Finance Center’s refund amounts.
                   Refunds
                                                ● Researches individuals’ accounts with credits to determine
                                                  whether appropriate to issue a refund.


        Accounts Receivable and                 ● Identifies any receivable accounts that do not have a zero
           Accounts Payable                       balance and verifies all payable accounts have been paid.
Source: IRS’ HCTC Program.

Our review of reconciliations performed during the period January 2008 to September 2009
showed that each month the IRS performed the reconciliations designed to ensure payments were
accurately processed. In addition, our validation of the December 2008 reconciliations identified
that the discrepancies identified from these reconciliations were timely resolved by the IRS.



7
    These steps are performed by a contractor for the IRS.
                                                                                                            Page 6
                         Health Coverage Tax Credit Recovery
                     Act Provisions Were Timely Implemented, but
                             Program Capacity Is Limited



Actions Were Taken to Implement the Health Care Tax Credit
Provisions Included in the American Recovery and Reinvestment Act
of 2009
The IRS timely and accurately implemented provisions relating to the Advance Monthly
Payment Option included in the Recovery Act. The Recovery Act included provisions to help
make health coverage more affordable. These provisions are expected to improve the
availability of health coverage to eligible individuals and their qualifying family members.
Provisions include:
   •   Changing the Federal Government portion of health insurance costs. The Federal
       Government subsidy of the health care premiums increased from 65 percent to 80 percent
       for qualified health insurance premiums. The increase covers the period April 2009
       through December 2010.
   •   Allowing individuals to receive reimbursement for premiums paid while enrolling in the
       Advance Monthly Payment Option (beginning August 2009 through December 2010)
       rather than waiting to file their annual tax return to claim the HCTC.
   •   Allowing family members to continue receiving the HCTC after certain life events.
   •   Expanding taxpayer eligibility in the Program.
Our review confirmed that the IRS increased the Federal Government portion of health insurance
premiums paid from 65 percent to 80 percent. The IRS developed the necessary programming to
increase the Federal Government portion for individuals participating as of April 2009. The
increased portion was reflected in participants’ April 2009 invoices that were sent prior to the
April 17, 2009, due date specified in the legislation.
In addition, the number of individuals participating in the Advance Monthly Payment Option
during the period April 2009 to April 2010 increased 67 percent. Figure 4 shows that, since the
Recovery Act raised the percentage of health insurance premiums paid by the Government, the
number of individuals participating in the Advance Monthly Payment Option increased from
15,553 individuals in April 2009 to 25,960 in April 2010.




                                                                                          Page 7
                               Health Coverage Tax Credit Recovery
                           Act Provisions Were Timely Implemented, but
                                   Program Capacity Is Limited



       Figure 4: Participation in the Advance Monthly Payment Option Since the
     Recovery Act Increased the Percentage of Health Insurance Premiums Paid by
                                     the Government


          30,000

          25,000

          20,000

          15,000

          10,000

           5,000

              -
                                                             t




                                                            y
                                           ly
                      il




                                                                                         il
                           ay




                                                           ry

                                                           ch
                                                            r
                                   ne




                                                           er


                                                            r

                                                            r
                                                         us




                                                         be




                                                         ar
                                                         be
                   pr




                                                                                      pr
                                                         be
                                        Ju




                                                        ua
                                                        ob
                           M




                                                        ar
                                Ju




                                                      nu
                                                      ug
                  A




                                                                                     A
                                                     em
                                                     em




                                                    em




                                                     br

                                                     M
                                                     ct
                                            A




                                                   Ja
                                                  pt




                                                  ov
                                                   O




                                                  ec




                                                 Fe
                                                Se




                                                N

                                                D




                                                    April 2009 - April 2010

                                                       Number of Individuals

      Source: IRS’ HCTC Program.

Furthermore, the IRS implemented processes to enable individuals to request reimbursement for
premiums paid while enrolling in the Advance Monthly Payment Option. To implement the
requirements of the Recovery Act, the IRS:
      •   Developed The Health Coverage Tax Credit (HCTC) Reimbursement Request
          (Form 14095)8 and associated instructions. Individuals use this form to request
          reimbursement for 80 percent of the premiums that they paid directly to a qualified health
          plan while enrolling in the monthly HCTC Program. For example:




8
    See Appendix VI for an example of Form 14095.
                                                                                              Page 8
                             Health Coverage Tax Credit Recovery
                         Act Provisions Were Timely Implemented, but
                                 Program Capacity Is Limited



           Individual A pays monthly health premiums of $450 directly to his or her health plan for
           the months September, October, and November 2009. Individual A is eligible to receive
           the HCTC and elects to participate in the Advance Monthly Payment Option, completing
                            the Monthly HCTC Registration Form to enroll in this option. When
          Example            registering for the Advance Monthly Payment Option, Individual A can
                             now request reimbursement for 80 percent of the $450 the individual
                             paid for his or her health insurance premiums for the months of
           September through November 2009. Once the HCTC Program processes the registration
           form, reimbursement request, and supporting documentation for each month,
           Individual A will receive a reimbursement credit totaling $360 (80 percent of the $450
           they paid) for each month on his or her HCTC account.
      •    Added a Reimbursement Request section to the HCTC Program Kit9 for an individual to
           request reimbursement of premiums he or she paid when registering for the Advance
           Monthly Payment Option.
      •    Updated the IRS web site (IRS.gov) to include information regarding the reimbursement
           option resulting from provisions in the Recovery Act.
      •    Established a work site staffed by 11 Invoice Verification Customer Service
           Representatives and 6 accountants located in San Antonio, Texas, to process
           reimbursement claims. To assist these individuals in the accurate processing of the
           reimbursement claims, the IRS developed a training manual and trained these individuals.
To claim a reimbursement, an individual must prepare either the stand alone Form 14095 or The
Health Coverage Tax Credit (HCTC) Reimbursement Request Form (Form 14095-A) in the
Health Care Tax Credit Program Kit (Publication 4181) and mail the form to the IRS’
San Antonio site for processing. Either form requires the individual to identify the eligible
month(s), monthly payment amounts, dates of payment, and total premiums paid for which
reimbursement is being requested.
Individuals must attach proof of payment with the submitted request form. If approved, the
HCTC Program posts the reimbursement as a credit on the individual’s HCTC account. If
denied, a letter is mailed to the individual to explain why his or her request for reimbursement
was not approved. An individual’s reimbursement claim can be denied for various reasons, such
as ineligibility, the reimbursement request is from a previous tax year, or the individual is not
currently registered for the Advance Monthly Payment Option.
Our review showed that the IRS received 7,798 reimbursement claims submitted by individuals
from September 2009 through January 2010. As of January 27, 2010, the IRS processed and
approved 6,824 reimbursements totaling more than $4.8 million. Our review of a statistically


9
    The HCTC Program Kit has the Monthly HCTC Registration Form and the Reimbursement Request Form.
                                                                                                      Page 9
                            Health Coverage Tax Credit Recovery
                        Act Provisions Were Timely Implemented, but
                                Program Capacity Is Limited



valid sample of 135 reimbursement credits for 74 individuals identified that reimbursement
credits were timely (on average claims were processed within 50 calendar days) and accurately
                                      processed with amounts requested for reimbursement
                                      supported by proof of payment.
         The IRS processed and
          approved 6,824 HCTC         However, our review found the reconciliation that HCTC
      reimbursement claims as of      Program management currently performs for
     January 27, 2010, totaling more  reimbursement credits is a time-consuming manual
            than $4.8 million.
                                      process and increases the risk of potential errors. The
                                      reconciliation assists the IRS in ensuring the accuracy of
                                      the amounts provided for reimbursement. The
reconciliation requires the HCTC Program manager to compare each line of the Reimbursement
General Ledger Report to the Posted Report showing the reimbursement credits that have posted
to individuals’ accounts. In December 2009, the Reimbursement General Ledger report had
3,083 line items that had to be manually compared to the report of posted reimbursement credits
to confirm the accuracy of the information.
HCTC management indicated that it is very time consuming to manually compare approximately
1,702 reimbursement credits on the individuals’ accounts to the accounting records. HCTC
management is aware of the benefits of automating reconciliation processes. Representatives
from the HCTC Project Office indicated that they elected to perform the reconciliation manually
to monitor the processing of reimbursement claims to identify any problems with processing and
to identify opportunities to automate steps in the process. Subsequent to our discussion with IRS
management, the process of reconciling reimbursement credits was automated in February 2010.
Management noted that additional report enhancements are planned.

Improvements Can Be Made to Increase the Efficiency of the Advance
Monthly Payment Processing
Although we found that payments were timely and accurately processed, the IRS will face
challenges if there is a significant increase in the number of monthly enrolled participants as a
result of provisions included in the Recovery Act or the newly enacted health reform legislation.
Prior to the Recovery Act, the IRS estimated the number of potentially eligible individuals to be
approximately 300,000 in any given month. Estimates in support of the provisions in the
Recovery Act indicate 570,000 individuals could be eligible. Notwithstanding the estimates of
potential participants, IRS management noted that the HCTC Program and systems10 are built to
support only 57,000 enrolled participants.


10
  The HCTC Program has a financial system that maintains financial and health plan data for HCTC participants
enrolled in the Advance Monthly Payment Option and a customer management system that maintains case related
data for HCTC participants.
                                                                                                      Page 10
                               Health Coverage Tax Credit Recovery
                           Act Provisions Were Timely Implemented, but
                                   Program Capacity Is Limited



The number of enrolled individuals participating in the Advance Monthly Payment Option
increased by 67 percent from April 2009 (implementation of the Recovery Act) to April 2010.
Participation is low when compared with the large number of individuals that are eligible to
participate. However, results of surveys required by the Recovery Act may further increase
participation. To address concerns regarding low participation, the Recovery Act requires the
Secretary of the Treasury to perform a biennial survey of individuals eligible to participate in the
HCTC Program. The survey and report would include both HCTC participants and non-HCTC
participants and may help identify potential causes for the low participation. Results of these
surveys may be used to help increase participation.
Further, the Patient Protection and Affordable Care Act11 and the Health Care and Education
Reconciliation Act of 201012 created another refundable tax credit (Premium Assistance Credit)
for eligible individuals and families who purchase health insurance through an exchange. Like
the HCTC, the Premium Assistance Credit allows for the advance payment of the premium
assistance tax credits. The Federal Government would pay the Premium Assistance Credit
amount directly to the individual’s insurance plan. Current projections indicate potentially
29 million individuals would receive these Federal premium subsidies, estimated to cost
$511 billion through Fiscal Year 2019. If it is necessary for the HCTC Program office to be
involved in the administration of the Premium Assistance Credit, it would present additional
Program administration challenges.
The current Advance Monthly Payment process requires
significant coordination between multiple Federal                To process Advance Monthly
agencies, contractors, and the IRS. Payments are received      Payments, the IRS was required
at the lockbox site and processed and deposited. Once this       to create the HCTC financial
is completed, a payment file is transmitted to the HCTC        system, which is separate from
                                                                IRS’ systems for tax accounts.
financial system. This starts a complex process to add the
Federal Government portion of the premium to the
individual’s portion and then eventually the payment is
sent to the Health Plan Administrator. Because the HCTC financial system is separate from the
IRS’ systems for tax accounts, each year transactions have to be posted to the individual’s tax
account reflecting monthly individual and Federal Government HCTC payments.
Although a number of electronic systems are involved in the processing of payments, significant
manual involvement is needed to ensure payments are accurately processed. Reconciliations
identify discrepancies regarding payments and have to be manually researched and resolved. For
instance, each month the Open Items on Closed Contract Reconciliation identifies all individuals
with a credit balance on their account. These accounts must be manually reviewed to determine
whether the outstanding credits on individual accounts should be refunded. In September 2009,


11
     Pub. L. No. 111-148, 124 Stat. 119 (2010).
12
     Pub. L. No. 111-152, 124 Stat. 1029 (2010).
                                                                                            Page 11
                             Health Coverage Tax Credit Recovery
                         Act Provisions Were Timely Implemented, but
                                 Program Capacity Is Limited



this reconciliation identified 148 individuals with credit balances. It took 2 accountants 3 to
4 days to review these accounts and to take the appropriate actions. The IRS issues a refund to
an individual when the credit on his or her account is a result of contract cancellation. However,
individuals can have credits on their HCTC account for a variety of reasons. Often, an individual
makes an overpayment in the current month to cover premiums in future months, and the credit
from the overpayment stays on the individual’s account until the IRS draws it down to pay for
the next month’s participant portion of the premium.
Overall, the IRS has effectively administered the HCTC but its capacity is very limited
(maximum capacity is 57,000 enrolled participants). In 2007, the IRS performed a study to
identify Program administration and system needs if participation increases above 57,000. This
study included an analysis of administrative costs and actions that would need to be taken should
the number of enrolled participants increase above the maximum level of 57,000 individuals.
The study noted the significant interaction that the Program requires with both the participant
and the Health Plan Administrator. The study found that the monthly HCTC Program interacts
with an average participant 30 to 35 times per year as well as at least 12 interactions with a
Health Plan Administrator.

Processes are needed to ensure the accuracy and consistency of information
included in the various payment processing systems
The Advance Monthly Payment Option requires coordination between multiple entities and
several computer systems. As a result, the payment processing systems are vulnerable to
inconsistencies because of the continual need for exchanging payment data between the HCTC
and IRS systems.
Identification of Health Plan Administrators participating in the Advanced Monthly Payment
Program is inconsistent between the HCTC and IRS systems. Our comparison of Health Plan
Administrators contained on the IRS’ financial system13 showed 183 more Health Plan
Administrators than listed on the HCTC financial system. HCTC Program management
indicated that the list we received on November 6, 2009, was the HCTC master list of Health
Plan Administrators that have or currently are participating in the Advance Monthly Payment
Option. These 183 Health Plan Administrators were created on the IRS’ financial system during
the period September 9, 2004, to November 6, 2009. In addition, we identified another 20
Health Plan Administrators for which the Taxpayer Identification Number (TIN)14 listed for the
Health Plan Administrator was not consistent between the IRS financial system and the HCTC



13
   The IRS financial system is a commercial-off-the-shelf software package, designated as the Integrated Financial
System.
14
   A TIN is a nine-digit number assigned to taxpayers for identification purposes. Depending upon the nature of the
taxpayer, the TIN is an Employer Identification Number, a Social Security Number, or an Individual TIN.
                                                                                                          Page 12
                            Health Coverage Tax Credit Recovery
                        Act Provisions Were Timely Implemented, but
                                Program Capacity Is Limited



financial system. Eight of these 20 Health Plan Administrators received 419 payments for
individuals’ medical premiums totaling $229,127.68 in Calendar Year 2008.
The IRS financial system routinely interfaces with the external HCTC financial system15 at the
IRS Computing Center located in Sterling, Virginia. The IRS financial system adds the Federal
Government portion to the individuals’ payments and is the system that issues the monthly
payments for individuals’ health premiums to the Health Plan Administrators. Therefore, both
systems should reflect the same Health Plan Administrators participating in the Advance
Monthly Payment Option.
Inconsistencies were identified between payment transactions reflected on the HCTC financial
system and payment transactions on the participating individuals’ tax accounts. Our review of
Calendar Year 2008 transactions identified 174 individuals that received a Health Coverage Tax
Credit (HCTC) Advance Payments (Form 1099-H)16 with an amount that did not agree with their
HCTC amounts on their tax account. Inaccurate information on Forms 1099-H can result in
individuals erroneously claiming an incorrect HCTC amount when filing a tax return. For these
174 individuals, the total amount reflected on their Form 1099-H did not match the amount of
Federal Government payments reflected on their IRS tax accounts. These discrepancies totaled
$60,534. The IRS has not developed a process to ensure that the Federal Government payments
reported on IRS tax accounts are consistent with those reported to taxpayers on Forms 1099-H.
IRS tax account information for individuals participating in the Advance Monthly Payment
Option should accurately reflect the total payments paid by the individual and the total
subsidized payments paid by the Federal Government during the year. The IRS issues a
Form 1099-H to each individual participating in the Advance Monthly Payment Option to show
him or her the amount of the Federal Government subsidy that was paid each month of a year for
his or her medical premiums. An individual can use this information to determine the amount he
or she can claim at year-end on his or her annual tax return.
HCTC records contained some invalid TINs for Health Plan Administrators. Our comparison
of Health Plan Administrator TINs included in the HCTC systems to IRS tax records identified
34 (1 percent) of 2,671 Health Plan Administrators on the HCTC’s November 6, 2009, list as
having an invalid TINs. An invalid TIN is one that has not been assigned by the IRS to the
Health Plan Administrator. When we brought this issue to the attention of HCTC Program
management, they responded that the accuracy of a Health Plan Administrator’s TIN is not
imperative as this information is not relevant for the HCTC systems.
Notwithstanding management’s position, we believe that the IRS should ensure that the Health
Plan Administrator TINs are accurately reflected in HCTC systems. Based on our review of the


15
  The HCTC system is an IRS system outside of the IRS network and maintained by contractors.
16
  Form 1099-H is used to report advance payments from the Department of the Treasury (Government portion) on
behalf of eligible individuals.
                                                                                                     Page 13
                             Health Coverage Tax Credit Recovery
                         Act Provisions Were Timely Implemented, but
                                 Program Capacity Is Limited



registration forms submitted to the HCTC Program by these 34 Health Plan Administrators, 16
(47 percent) of the invalid TINs were the result of an HCTC employee not correctly inputting the
information into the HCTC systems.

Processes should be established to ensure HCTC eligibility indicators are added
to the associated individuals’ tax accounts
Our review identified that eligibility indicators for 3,661 individuals in Calendar Year 2009
could not be posted to the respective individuals’ IRS tax account. HCTC Program management
has indicated that they are aware that indicators are unable to post to some of the eligible
individuals’ tax accounts. Management noted that a business decision was made to not resolve
these unpostable conditions because they represent less than 1 percent of the accounts for which
an indicator is added.
However, in our review of a statistically valid sample of 111 of the 3,661 unpostable accounts,
we were able to locate the associated IRS tax account for 55 (50 percent) of the individuals for
which the indicator was unpostable. For the remaining 56, there was no record of a tax account
for the individual for Calendar Year 2009; therefore, the IRS would have been unable to post the
indicator. The IRS should identify unpostable eligibility indicators and, once identified, research
those individuals for whom a tax account exists to add the indicator.
Every December, the IRS generates a tape from the HCTC customer management system17 that
identifies individuals eligible for the HCTC. This tape is used to update the IRS tax account
information that allows the individual to claim the HCTC on his or her annual tax return.
Without this indicator, the individual cannot receive money for the premium paid throughout the
year. For example:




17
  The customer management system maintains eligibility, payment history, policy, health plan, and case-related
data for all HCTC participants.
                                                                                                         Page 14
                         Health Coverage Tax Credit Recovery
                     Act Provisions Were Timely Implemented, but
                             Program Capacity Is Limited



       Individual A makes monthly premium payments directly to his or her health provider
       throughout the year and claims the HCTC on his or her annual tax return and attaches
                          Form 8885 with the required supporting documentation. Because the
      Example             HCTC indictor is not present on the individual’s IRS tax account, the
                          HCTC is disallowed and the tax return is sent to the Error Resolution
       function and tax examiners will correspond with the taxpayer. The individual would be
       required to contact his or her State agency or the PBGC to obtain evidence that he or she
       is eligible for the HCTC. Once the individual receives the evidence of eligibility, that
       evidence would have to be forwarded to the HCTC Program and ultimately worked by a
       post-processing function, IRS Accounts Management. This process will needlessly delay
       the individual from receiving the HCTC to which he or she is entitled.
Not establishing a process to resolve unpostable situations can have a negative impact on these
individuals and result in taxpayer burden. If an individual legitimately elects to claim both the
monthly credit and the year-end credit, they could not receive the year-end credit because there is
no eligibility indicator on the IRS tax account because the unpostable condition was not
resolved. In addition, an individual would receive a Form 1099-H generated from the HCTC
customer management system; however, the advance payment information on the Form 1099-H
would not be reflected on the IRS tax account because the eligibility and advance payments did
not post for that individual.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Develop a process to ensure Health Plan Administrators reflected on the
HCTC systems are consistent with those reflected on the IRS systems. This should include
ensuring Health Plan Administrators are consistently listed on the IRS financial system and the
HCTC financial system and Health Plan Administrators’ TINs are valid.
       Management’s Response: The IRS agreed with this recommendation. A joint effort
       was launched August 2, 2010, by the Beckley Finance Center staff and the HCTC
       Payments Processing Team to review, analyze, and correct discrepancies between the
       Integrated Financial System and HCTC system.
       Also, the HCTC Payments Processing Team and the Beckley Finance Center staff will
       conduct joint quarterly quality reviews of HCTC and Integrated Financial System vendor
       extracts, to ensure both systems accurately reflect the same data. Any discrepancies will
       be worked jointly to ensure data integrity between the two systems.
Recommendation 2: Develop a process to ensure individuals participating in the Advance
Monthly Payment Option receive accurate Form 1099-H payment information.


                                                                                           Page 15
                       Health Coverage Tax Credit Recovery
                   Act Provisions Were Timely Implemented, but
                           Program Capacity Is Limited



      Management’s Response: The IRS disagreed with this recommendation because
      individuals participating in the Advance Monthly Payment Option do receive accurate
      Form 1099-H payment information. Data contained on Form 1099-H are for information
      only. If payment information is updated or changed, a corrected Form 1099-H is issued
      to the taxpayer and to the IRS. All IRS HCTC systems correctly reflect accurate payment
      data.
      Office of Audit Comment: Notwithstanding IRS management’s response, some
      individuals did receive inaccurate Form 1099-H information. As we detailed in our
      report, 174 individuals received a Form 1099-H with an amount that did not agree with
      the HCTC amounts on their tax account. In addition, the IRS indicates that the
      Form 1099-H is for information only. We agree that the Form 1099-H provides
      information to individuals on the amount of HCTC Federal Government payments, which
      is the reason that it should be accurate. Individuals receiving Forms 1099-H use this
      information when preparing their tax returns.
Recommendation 3: Develop a process to identify and resolve unpostable records to ensure
eligibility indicators are added to individuals’ tax accounts.
      Management’s Response: The IRS agreed with this recommendation; however,
      additional corrective action is not necessary. The IRS submitted a Unified Work Request
      that was approved by the Modernization and Information Technology Services
      organization for Tax Year 2011 to identify unpostable transactions and generate a report.
      This report will be used to manually post these transactions to the Master File.




                                                                                       Page 16
                             Health Coverage Tax Credit Recovery
                         Act Provisions Were Timely Implemented, but
                                 Program Capacity Is Limited



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to evaluate the efficiency and effectiveness of HCTC payment
processing. To accomplish our objective, we:
I.      Determined whether reconciliations are performed to ensure accuracy of monthly HCTC
        financial records.
        A. Determined whether reconciliations for Calendar Year 2008 and Calendar Year 2009,
           through September, were performed timely.
        B. Assessed whether the reconciliations for Calendar Year 2008 and Calendar
           Year 2009, through September, identified discrepancies and, if so, whether corrective
           actions were taken to address the discrepancies.
        C. Obtained the reconciliations completed in December 2008 to determine whether
           discrepancies identified were resolved timely and completed correctly.
        D. Determined the methodology that the HCTC Program uses to ensure reconciliations
           are effectively conducted.
II.     Determined whether payments are accurately calculated and timely processed.
        A. Determined whether parameters have been established to limit payment of an
           individual’s health insurance premium to a designated price level.
        B. Obtained the volumes and amounts of Advance Monthly payments to Health Plan
           Administrators for Calendar Years 2007, 2008, and 2009.
        C. Selected a statistically valid sample of 150 individuals with payments from the
           population of 20,434 IRS Returns Processing Individual Master File1 records for Tax
           Year 2008 cycle 200930 that had a Transaction Code 971 (Miscellaneous transaction
           that performs different actions based on the Action Code) with Action Code 170
           (Represents an individual’s payment for the Advance Monthly Payment Option) and
           Action Code 171 (Represents the Government’s 65 percent portion of the individual’s
           monthly premium). We assessed the reliability of the Returns Processing Individual
           Master File by performing run-to-run balancing and reviewing a sample of 25 records
           against the IRS Integrated Data Retrieval System2 and determined the data met extract

1
  The IRS database that maintains transactions or records of individual tax accounts.
2
  IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 17
                             Health Coverage Tax Credit Recovery
                         Act Provisions Were Timely Implemented, but
                                 Program Capacity Is Limited



             criteria and were valid per IRS files. Our sample size was based on a 90 percent
             confidence level, a 5 percent error rate, and ±3 percent precision level. We reviewed
             the individuals’ Advance Monthly Payments in Calendar Year 2008 and found that
             the payments were timely and accurately processed.3
        D. Matched 20,434 IRS Returns Processing Individual Master File records for Tax
           Year 2008 cycle 200930 that had a Transaction Code 971 (Miscellaneous transaction
           that performs different actions based on the Action Code) with Action Code 171
           (Represents the Government’s 65 percent portion of the individual’s monthly
           premium) to a computer extract of the Tax Year 2008 Health Coverage Tax Credit
           (HCTC) Advance Payments (Form 1099-H)4 to determine whether the amount of
           Federal subsidized payments on the IRS Master File5 is the same amount as reported
           on the Form 1099-H. We assessed the reliability of the Returns Processing Individual
           Master File by performing run-to-run balancing and reviewing a sample of 25 records
           to the IRS Integrated Data Retrieval System and determined the data met extract
           criteria and were valid per IRS files. We validated the reliability of the Form 1099-H
           computer extract by reviewing a sample of 25 records on the Integrated Data
           Retrieval System to verify eligibility for the HCTC Program and to confirm payments
           were made on behalf of the eligible participants.
        E. Obtained a list from the IRS with 3,661 transactions pertaining to the Advance
           Monthly Payment Option that did not post to individuals’ tax accounts. We selected
           a statistically valid sample of 111 transactions from the population of
           3,661 unpostable transactions to determine whether a tax account existed to post a
           transaction. Our sample size was determined based on a 95 percent confidence level,
           5 percent expected error rate, and ±4 percent precision level. For each of the 111
           transactions, we used the Integrated Data Retrieval System to determine whether an
           individual’s entity data were on IRS files.
III.    Reviewed the HCTC Program’s Health Plan Administrators on file to determine the
        validity of the TINs and to ascertain whether the information is consistent with IRS’
        Health Plan Administrators on file.
        A. Obtained a file containing 2,671 Health Plan Administrators from the HCTC Program
           on November 6, 2009, and obtained a file containing 3,060 Health Plan


3
  We reviewed only 90 of the 150 individuals with payments in Calendar Year 2008 because the HCTC Program
management could not provide documentation for the remaining individuals due to the burden on the HCTC
Program’s limited resources.
4
  Form 1099-H is used to report advance payments from the Department of the Treasury (Government portion) on
behalf of eligible individuals.
5
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                         Page 18
                             Health Coverage Tax Credit Recovery
                         Act Provisions Were Timely Implemented, but
                                 Program Capacity Is Limited



             Administrators on the IRS’ Integrated Procurement System6 from the IRS Beckley
             Finance Center on January 12, 2010. We also obtained a file of 3,437 Health Plan
             Administrators on the IRS’ Integrated Financial System7 as of April 27, 2010, which
             showed the date each Health Plan Administrator was created in the Integrated
             Financial System. We compared the HCTC Program file of Health Plan
             Administrators to the IRS files of Health Plan Administrators to determine whether
             the files were consistent and reflected the same Health Plan Administrators
             participating in the Advance Monthly Payment Program as of November 6, 2009.
        B. Obtained a file containing 2,671 Health Plan Administrators from the HCTC Program
           on November 6, 2009. We matched the HCTC Program file of Health Plan
           Administrators to the IRS Business Master File8 to determine the validity of the TINs.
           We assessed the reliability of the Business Master File data by performing a
           run-to-run balancing and reviewing a sample of 25 records against the IRS Integrated
           Data Retrieval System and determined the data met extract criteria and were valid per
           IRS files. We determined whether the American Recovery and Reinvestment Act of
           2009 (Recovery Act)9 changes to the Advance Monthly Payment HCTC were
           implemented by the dates established by the legislation.
        C. Used the March 2009 Summed Vendor Payment report for the March 26, 2009,
           payment run and March 30, 2009, payment run and the April 2009 Summed Vendor
           Payment report for the April 24, 2009, payment run and the April 28, 2009, payment
           run to verify whether the Federal Government subsidized payment was timely
           changed from 65 percent of an individual’s monthly health insurance premium to
           80 percent, as required by the HCTC provisions of the Recovery Act.
        D. Obtained the IRS’ Wage and Investment Division Scorecard Report to determine
           whether the IRS met the legislated date for implementing the reimbursement of health
           premiums paid when eligible and enrolling in the Advance Monthly Payment Option.
           We secured documentation to ascertain whether a training guide had been developed
           and procedures established to reimburse individuals eligible for the Advance Monthly
           Payment Option for health insurance payments they paid during the enrollment
           process and reviewed documentation to determine whether a review and approval
           process of the reimbursement credits was performed before disbursement by the IRS.
           In addition, we selected a statistically valid sample of 150 individuals from a

6
  The IRS procurement system, designated as the Integrated Procurement System, is used to track obligations, create
solicitations and awards, handle vendor files, and generate reports.
7
  The IRS financial system is a commercial off-the-shelf software package, designated as the Integrated Financial
System.
8
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
9
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
                                                                                                          Page 19
                           Health Coverage Tax Credit Recovery
                       Act Provisions Were Timely Implemented, but
                               Program Capacity Is Limited



            population of 4,390 individuals who submitted claims for reimbursement credits from
            September 1, 2009, through January 31, 2010. Our sample size was determined
            based on a 95 percent confidence level, 50 percent expected error rate, and ±8 percent
            precision level. We reviewed reimbursement claims with supporting proof of
            payment and reimbursement credit details to determine whether the claims were
            timely and accurately processed.10
IV.     Interviewed HCTC Program management and obtained documentation to determine
        whether the IRS has a process to provide customer service to individuals participating in
        the Advance Monthly Payment Option and how the IRS tracks and monitors these
        individuals’ issues with the Advance Monthly Payment Option.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Recovery Act; Internal Revenue
Manual; Standards for Internal Control in the Federal Government;11 and HCTC Program
policies, procedures, and practices for the Advance Monthly Payment Option. We evaluated
these controls by interviewing management, reviewing applicable information, analyzing
advance payment data on the Master File and Form 1099-H, reviewing a sample of Advance
Monthly Payments, and examining Health Plan Administrator information.




10
   We reviewed only 74 of the 150 individuals with submitted claims for reimbursement credits from
September 1, 2009, through January 31, 2010, because the HCTC Program management could not provide
documentation for the remaining individuals due to the burden on HCTC’s limited resources.
11
   GAO/AIMD-00-21.3.1, dated November 1999.
                                                                                                     Page 20
                        Health Coverage Tax Credit Recovery
                    Act Provisions Were Timely Implemented, but
                            Program Capacity Is Limited



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell P. Martin, Director
Edward Gorman, Audit Manager
Gwendolyn Gilboy, Lead Auditor
Karen Fulte, Senior Auditor
Denise M. Gladson, Auditor
LaToya Penn, Auditor
Marcus D. Sloan, Auditor
Richard Hillelson, Information Technology Specialist




                                                                                    Page 21
                        Health Coverage Tax Credit Recovery
                    Act Provisions Were Timely Implemented, but
                            Program Capacity Is Limited



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:ETARC
Acting Program Manager, Health Coverage Tax Credit, Wage and Investment Division
SE:W:HCTC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                                     Page 22
        Health Coverage Tax Credit Recovery
    Act Provisions Were Timely Implemented, but
            Program Capacity Is Limited



                                                  Appendix IV

Health Coverage Tax Credit (Form 8885)




                                                       Page 23
                             Health Coverage Tax Credit Recovery
                         Act Provisions Were Timely Implemented, but
                                 Program Capacity Is Limited



                                                                                                Appendix V

          Role of Each Location in the Health Coverage Tax
                          Credit Program

•   Washington, D.C. (HCTC Program office)
The Headquarters office in Washington, D.C., provides oversight of the monthly HCTC Program
and works in conjunction with the Finance and Accounting office in Houston, Texas, the
Beckley Finance Center in Beckley, West Virginia, and the U.S. Bank.1 They develop and
maintain policy, certify manual and electronic payments for processing, and resolve erroneous
payment issues. They are responsible for resolving management issues with the U.S. Bank,
developing and maintaining work process flows and desk guides, performing Program
Management Review for the Payment Processing Operations team, and resolving escalated
Health Plan Administrator issues. In response to a prior Treasury Inspector General for Tax
Administration recommendation,2 the HCTC Program office agreed to establish a manual
process to allow the association of the taxpayer receivable records in a subsidiary ledger with the
Advance Payment Program taxpayer account ledger.
•   Waterloo, Iowa (Customer Contact Center)
The Customer Service Contact Center is located in Waterloo, Iowa, and is a subcontractor that
processes registrations, answers questions, and resolves participant issues. The customer service
representatives collect data, resolve cases, update participant information, handle registration and
payment inquiries, confirm qualified health coverage, verify invoice documentation, and verify
health insurance premiums and premium changes.
•   Peoria, Illinois (Distribution Center)
The Distribution Center is located in Peoria, Illinois, and distributes program kits, registration
forms, program brochures, participant letters, and monthly invoices.




1
 The U.S. Bank in St. Louis, Missouri, is the lockbox site that processes incoming individuals’ monthly payments.
2
 Financial Controls Over the Health Coverage Tax Credit Advance Payment Process Need to be Enhanced
(Reference Number 2006-10-085, dated May 26, 2006).
                                                                                                         Page 24
                             Health Coverage Tax Credit Recovery
                         Act Provisions Were Timely Implemented, but
                                 Program Capacity Is Limited



•   St. Louis, Missouri (Lockbox office)
The U.S. Bank in St. Louis, Missouri, is the lockbox site that processes incoming individuals’
monthly payments. The lockbox site determines whether the participant is eligible for the HCTC
Program and, if not, mails a reject letter with the participant’s check to the participant. However,
the settlement of the checks (that is, deposit) is performed by Citibank, and settlement of credit
card payments is done by the Department of the Treasury through the Pay.gov web site. The
lockbox site also processes Health Plan Administrator returned funds with the HCTC billion
account number.3
•   Houston, Texas (HCTC Finance and Accounting office)
The contractor’s (Accenture) Finance and Accounting office is comprised of two sections:
General Accounting and Reporting/Systems Control and Health Plan Administrator
Outreach/Case Management. This office is responsible for all accounting, payment processing,
and vendor-related activities, such as participant account maintenance; Health Plan
Administrator interactions and account maintenance; vendor set-up in the IRS financial system;
Health Plan Administrator returned funds and bulk premium changes; and reconciliation of the
HCTC general ledger.
•   San Antonio, Texas (Delivery Center)
The HCTC Program plans to move all accounting and financial activities for the Advance
Monthly Payment Option from Houston, Texas, to San Antonio, Texas. Fiscal Year 2010 was
the transition year for this move, with the San Antonio Delivery Center operational in Fiscal
Year 2009. Starting September 2009, the San Antonio Delivery Center began processing claims
for reimbursement for individuals waiting to enroll in the Advance Monthly Payment Option.
•   Beckley, West Virginia (Beckley Finance Center)
The Beckley Finance Center in Beckley, West Virginia, is part of the IRS Chief Financial Office.
The Beckley Finance Center is responsible for processing payments for manual transactions and
electronic payment files, and performs monthly reconciliations for the IRS general ledger. The
Beckley Finance Center supports the HCTC Payment Processing Operations on a daily basis and
performs Health Plan Administrator vendor set-up, manual payment processing, payment file
processing support, post-payment file reconciliation reports, payment cancellations, and
reconciliation of HCTC appropriations to the IRS general ledger.




3
 Health Plan Administrators mail checks to the lockbox site with a notation that the monies should be applied to the
billion account number. These checks are deposited to the billion account and held there until research is performed
by the HCTC Program to determine the proper application of the monies.
                                                                                                           Page 25
                           Health Coverage Tax Credit Recovery
                       Act Provisions Were Timely Implemented, but
                               Program Capacity Is Limited



•   Sterling, Virginia / Reston, Virginia (Computer Systems/Computer Support)
The HCTC server is physically located in Sterling, Virginia. The contractor’s computer staff is
located in Reston, Virginia, and provides the systems operations support for the HCTC Program.
The U.S. Bank lockbox site in St. Louis provides daily payment reports to Reston, and the data
are uploaded into the HCTC financial system where the individuals’ accounts are updated with
the payments.
•   Detroit, Michigan (Secure Intermediary Site for Transmission of Files)
This site provides a place for receipt of data from an external HCTC system4 and transmission of
data to an external HCTC system.




4
 The HCTC system is an IRS system comprised of two network systems that are outside of the IRS network and
maintained by contractors.
                                                                                                    Page 26
        Health Coverage Tax Credit Recovery
    Act Provisions Were Timely Implemented, but
            Program Capacity Is Limited



                                                  Appendix VI

The Health Coverage Tax Credit (HCTC)
Reimbursement Request (Form 14095)




                                                       Page 27
    Health Coverage Tax Credit Recovery
Act Provisions Were Timely Implemented, but
        Program Capacity Is Limited




                                              Page 28
          Health Coverage Tax Credit Recovery
      Act Provisions Were Timely Implemented, but
              Program Capacity Is Limited



                                                    Appendix VII

Management’s Response to the Draft Report




                                                          Page 29
    Health Coverage Tax Credit Recovery
Act Provisions Were Timely Implemented, but
        Program Capacity Is Limited




                                              Page 30
    Health Coverage Tax Credit Recovery
Act Provisions Were Timely Implemented, but
        Program Capacity Is Limited




                                              Page 31
